OIG Audit Report GR-30-02-001
Office of Community Oriented Policing Services
Grants to the Berkeley County Sheriff's Department
Martinsburg, West Virginia
Audit Report GR-30-02-001
October 2001
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Berkeley County Sheriff's Department (grantee) in Martinsburg, West Virginia.  The purpose of the grants is to enhance community policing.  The grantee was awarded a total of $800,005 to hire 11 new officers and $49,668 to acquire equipment and to redeploy the equivalent of 2.1 existing full-time police officers from administrative duties to community policing.

We reviewed the grantee's compliance with seven essential grant conditions:  Budgeting for officers, hiring of officers, source of local matching funds, reimbursement requests, retention of officer positions, officer redeployment, and community policing activities.  We found the grantee to be in compliance with these essential grant conditions with the exception of officer redeployment and financial reporting in conjunction with reimbursement requests.  As a result of the deficiencies identified below, we question $49,668 in grant funds received by the grantee for the redeployment grant.

The grantee had not yet implemented the MORE 98 project or begun redeployment tracking.   However, the grantee had drawn down and spent all of the grant funds.  The grant terminated on November 30, 2000.  

	The reported amounts on the Financial Status Reports (FSR) for the hiring grants were inaccurate and no FSRs were prepared and submitted for the MORE 98 grant.  The weaknesses are not dollar-related 1.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 




Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and definitions of questioned and funds to better use.